In The
Supreme Court of the United States
Walter C. Lange,
Petitioner
v.
Commissioner of Internal Revenue
Respondent

CERTIFICATE OF COMPLIANCE
1. This petition complies with the type-volume limitation of the Rules of the Supreme
Court of the United States because it contains 4572 words, as determined by the word-count
function of WordPerfect X6, excluding the parts of the brief exempted by said rules.
2. This brief complies with the typeface requirements of Rules of the Supreme Court of
the United States, Rule 33.1 and the type style requirements of Rules of the Supreme Court of
the United States, Rule 33.1 because it has been prepared in a proportionally spaced typeface
using WordPerfect X6 in 12-point Century Schoolbook font.
Pursuant to 28 USC 1746: I declare under penalty of perjury under the laws of the United
States of America that the foregoing is true and correct.
Executed on

Walter C. Lange

•g; ■*&/?,

